           Audit Report




AUDIT REPORT
INFORMATION TECHNOLOGY: Federal Information Security
Management Act Fiscal Year 2008 Performance Audit (OIG-08-046)

September 26, 2008



Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                                 W ASHINGTON, D.C. 20220

                                                   September 26, 2008
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR PETER B. MCCARTHY
                           ASSISTANT SECRETARY FOR MANAGEMENT AND
                           CHIEF FINANCIAL OFFICER

                                      MICHAEL DUFFY
                                      CHIEF INFORMATION OFFICER

            FROM:                     Joel Grover /s/
                                      Deputy Assistant Inspector General for Financial Management
                                      and IT Audits

            SUBJECT:                  2008 Audit of Treasury’s Federal Information Security
                                      Management Act Implementation

            I am pleased to transmit the following reports:

                •   Federal Information Security Management Act Fiscal Year 2008 Performance
                    Audit–September 26, 2008
                •   Treasury Inspector General for Tax Administration (TIGTA)–Federal Information
                    Security Management Act Report for Fiscal Year 2008, Audit #200820024,
                    September 10, 2008

            The Federal Information Security Management Act of 2002 (FISMA) requires an annual
            independent evaluation of the Department of the Treasury’s information security
            program and practices. To meet FISMA requirements, we contracted with KPMG LLP,
            an independent certified public accounting firm, to perform the FISMA audit of
            Treasury’s unclassified systems, except for those of the Internal Revenue Service
            (IRS). Attachment 1 contains the KPMG report and our Office of Management and
            Budget submission 1 , which incorporates the responses from TIGTA. Attachment 2
            contains TIGTA’s evaluation of FISMA compliance for IRS systems. 2

            1
              The Office of Management and Budget Memorandum M-08-21, “FY 2008 Reporting Instructions for
            the Federal Information Security Management Act and Agency Privacy Management,” dated July 14,
            2008, requires completion of FISMA reporting template by the Inspector General of each agency.
            2
              We did not review the work performed by TIGTA to evaluate the information security program and
            practices of IRS. Our overall conclusions, insofar as they relate to IRS, are based solely on TIGTA’s
            report (attachment 2). We did, however, coordinate with TIGTA on the scope and methodology,
            including sample selection, of our respective engagements.
Page 2



Based on the results reported by KPMG and TIGTA, we determined that Treasury’s
information security program is in place and is generally consistent with FISMA. Also,
Treasury had implemented all provisions of HSPD-7 paragraphs 1 through11.
However, the KPMG audit of Treasury’s unclassified systems (except for those of IRS)
indicated that additional steps are required to ensure that Treasury’s information
security risk management program and practices fully comply with applicable National
Institute of Standards and Technology (NIST) standards and guidelines and FISMA
requirements. Specifically, KPMG reported that (1) NIST FIPS 200 minimum security
control baselines were not sufficiently documented, tested, and/or implemented; (2)
computer security incidents were not consistently reported timely or correctly
categorized; (3) common security configuration baselines were not fully compliant; and
(4) federal desktop core configurations were not fully implemented.

TIGTA reported that IRS had made significant improvements in the areas of security
identified as needing improvement in TIGTA’s 2007 FISMA evaluation and had
improved the efficiency of its certification and accreditation process. Additionally,
TIGTA found that IRS had completed certification and accreditation for the last of its
systems. TIGTA noted the most significant area of concern was IRS’s implementation
of configuration management standards.

If you have any questions or require further information, you may contact me at (202)
927-5768, or Tram Dang at (202) 927-5171. For questions pertaining to the TIGTA
FISMA evaluation, please contact Margaret E. Begg, Assistant Inspector General for
Audit (Information Systems Programs), at (202) 622-8510.


Attachments

cc:      Edward A. Roback, Associate Chief Information Officer, Cyber Security
            ATTACHMENT 1

Federal Information Security Management Act
    Fiscal Year 2008 Performance Audit,
             September 26, 2008
United States Department of the Treasury
Federal Information Security Management Act
Fiscal Year 2008 Performance Audit



         Prepared for the United States Department of the Treasury
                                    Office of the Inspector General

                                          Prepared by KPMG LLP



                                                 September 26, 2008
                                                     TABLE OF CONTENTS

FISMA PERFORMANCE AUDIT REPORT
EXECUTIVE SUMMARY .......................................................................................................................... 1
BACKGROUND .......................................................................................................................................... 4
OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................................................ 8
RESULTS ................................................................................................................................................... 12
CONCLUSIONS......................................................................................................................................... 18
MANAGEMENT RESPONSE TO DRAFT REPORT .............................................................................. 19

APPENDICES
APPENDIX I - OIG RESPONSE TO THE FY 2008 OMB FISMA REPORTING QUESTIONS .......... I-1
APPENDIX II – APPROACH TO THE SELECTION OF THE SUBSET OF SYSTEMS .................... II-1
APPENDIX III - ACRONYM LISTING.................................................................................................III-1
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036




EXECUTIVE SUMMARY

September 26, 2008

Joel Grover
Deputy Assistant Inspector General for Financial Management and Information Technology Audits
United States Department of the Treasury
740 15th Street, N.W., Suite 600
Washington, D.C. 20220

Dear Mr. Grover:

This report presents the results of our performance audit conducted to address the objectives relative to
the Fiscal Year (FY) 2008 Federal Information Security Management Act of 2002 (FISMA) of the 12
non-Internal Revenue Service (IRS) bureaus of the United States Department of the Treasury (Treasury).
The IRS was not included within the scope of this FISMA audit. The Treasury Inspector General for Tax
Administration (TIGTA) performed the FISMA evaluation of the IRS. As part of this FISMA audit, we
only incorporated the results of the TIGTA FISMA evaluation of the IRS into the Office of Management
and Budget (OMB) FY 2008 FISMA Reporting Template (See Appendix I). Our audit was performed
during the period of May 13 through August 29, 2008. The Treasury Office of the Inspector General
(OIG) contracted with KPMG LLP (KPMG) to conduct a performance audit of the Treasury’s non-IRS
information security program and practices pursuant to FISMA.

We conducted this performance audit in accordance with the standards applicable to such audits contained
in Generally Accepted Government Auditing Standards (GAGAS), issued by the Comptroller General of
the United States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The objectives of our audit were to determine as of June 30, 2008, whether non-IRS Treasury bureaus had
implemented:

•   An information security program, consisting of plans, policies, procedures, and security controls,
    consistent with FISMA1
•   The security control catalog contained in the National Institute of Standards and Technology (NIST)
    Special Publication (SP) 800-53 Revision 2 (Rev. 2) Recommended Security Controls for Federal
    Information Systems
•   Plans for protecting the physical and cyber critical infrastructure and key resource (CI/KR) consistent
    with paragraphs 1 through 11 of Homeland Security Presidential Directive (HSPD)-7, Critical
    Infrastructure Identification, Prioritization, and Protection.



1
 This objective includes the completion of the OMB FY 2008 FISMA Reporting Template for IGs, which is
presented in Appendix I of this report.

                                                                                                        Page 1
                                    KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                    a member of KPMG International, a Swiss cooperative.
To accomplish our objectives, KPMG evaluated controls in accordance to applicable legislation;
Presidential directives; OMB policy; and NIST standards and guidelines. We reviewed the Treasury
information security program from both the Top-Down Department level for Treasury-wide program
level controls and Bottom-Up Bureau level implementation perspective, including the implementation of
the security control catalog outlined in NIST SP 800-53 Rev. 2. We also reviewed Treasury’s progress in
preparing plans to protect information technology (IT)-related CI/KR. We considered each area above to
reach conclusions with regard to the adequacy of the Treasury’s information security program and
practices.

During our FY 2008 audit, we noted that the 12 non-IRS Treasury bureaus have made progress in
improving information security controls and practices.2 Following our 2007 security evaluation, Treasury
strengthened its inventory reporting and Plan of Action and Milestones (POA&M) processes by more
effectively using the Trusted Agent FISMA (TAF) system to serve as the consolidated FISMA inventory
system of record for Treasury and as the POA&M centralized, Treasury-wide system for tracking IT
security weaknesses.3

Based on our 2008 FISMA audit, we determined that Treasury had implemented all provisions of
HSPD-7 and OMB Memorandum 04-15 Development of Homeland Security Presidential Directive
(HSPD) - 7 Critical Infrastructure Protection Plans to Protect Federal Critical Infrastructures and Key
Resources. This included the development of critical infrastructure plans in identifying, prioritizing,
protecting, and planning for contingencies related to IT-related CI/KR of Treasury bureaus and those
under direction and control of the Office of the Chief Information Officer (OCIO).

However, we also noted areas needing improvement where Treasury should take additional steps to
ensure that its information security risk management program and practices fully comply with applicable
NIST standards and guidelines and FISMA requirements. Specifically:

    1. NIST Federal Information Processing Standards (FIPS) 200 Minimum Security Control
       Baselines Were Not Sufficiently Documented, Tested, and/or Implemented. Treasury has
       made progress in addressing information security risk management requirements as required by
       FISMA and NIST, including the certification and accreditation of information systems and the
       implementation of minimum security controls outlined in NIST FIPS 200 and NIST SP 800-53
       Rev. 2. However, we noted that the minimum security controls required by NIST FIPS 200 were
       not documented, tested, and/or implemented for the eight (8) non-IRS information systems (or
       35% of the representative subset of Treasury information systems) reviewed as part of our
       representative subset of Treasury information systems. In addition, one (1) deficiency related to
       certification and accreditation documentation in our FY 2007 report had not been resolved.

    2. Computer Security Incidents Were Not Consistently Reported Timely or Correctly
       Categorized. Nine (9) computer security incidents across six (6) bureaus were not assigned the
       correct United States Computer Emergency Readiness Team (US-CERT) incident categorization
       as required by Treasury policy, and nine (9) other computer security incidents across seven (7)
       bureaus were not reported within the timeframes outlined by the US-CERT.

    3. Common Security Configuration Baselines Were Not Fully Compliant. Treasury has
       established a Department-wide configuration management policy requiring all information
       systems to implement NIST SP 800-70 common security configuration baselines. However, we

2
 The FISMA evaluation of the IRS is performed by TIGTA.
3
 TAF is an enterprise tool for aggregating data reported by Treasury bureaus to gauge how well the Department is
complying with key information security practices and controls.

                                                                                                           Page 2
       noted two (2) systems (or 17% of the representative subset of Treasury information systems) had
       not utilized NIST SP 800-70 common security configurations.

   4. Federal Desktop Core Configurations Were Not Fully Implemented. Treasury has made
      substantial progress in the implementation of Federal Desktop Core Configuration (FDCC) secure
      configuration baselines since the issuance of OMB Memorandum 07-11, Implementation of
      Commonly Accepted Security Configurations for Windows Operating Systems. However, we
      noted four (4) bureaus had not completed the implementation and validation of FDCC secure
      baseline configurations.

As part of the FISMA audit of the non-IRS systems at Treasury, we assessed the effectiveness of
Treasury’s information security programs and practices and the implementation of the security control
catalog contained in NIST SP 800-53. Overall, we determined that an information security program is in
place and is generally consistent with FISMA; however, Treasury did not fully comply with the
requirements of NIST SP 800-53, as of June 30, 2008. Specifically, we determined from a sample of
systems reviewed that 35% of Treasury non-IRS systems did not fully comply with NIST SP 800-53
minimum security control catalog requirements. We are reporting exceptions with the extent NIST 800-
53 minimum security control catalogs were documented, implemented or tested. All of our findings are
included in the results section of this report, which warrants management attention and corrective action.
Management concurs with all reported findings and recommendations. The OCIO’s written response to
our draft report, dated September 15, 2008, is included within this report.

This performance audit did not constitute an audit of financial statements in accordance with Government
Auditing Standards. KPMG was not engaged to, and did not, render an opinion on Treasury’s internal
controls over financial reporting or over financial management systems (for purposes of OMB Circular
No. A-127, Financial Management Systems, July 23, 1993, as revised). KPMG cautions that projecting
the results of our evaluation to future periods is subject to the risks that controls may become inadequate
because of changes in conditions or because compliance with controls may deteriorate.

Sincerely,




                                                                                                    Page 3
BACKGROUND

On December 17, 2002, the President signed into law H.R. 2458, the E-Government Act of 2002 (Public
Law 107-347). Title III of the E-Government Act of 2002, commonly referred to as FISMA, focuses on
improving oversight of Federal information security programs and facilitating progress in correcting
agency information security weaknesses. FISMA requires Federal agencies to develop, document, and
implement an agency-wide information security program that provides security for the information and
information systems that support the operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source. The Act assigns specific responsibilities to
agency heads and Inspectors General (IGs) supported by security policy promulgated through OMB and
risk-based standards and guidelines published by NIST. For FY 2008, the OIG awarded a contract to
KPMG to perform the FISMA audit for Treasury’s non-IRS unclassified systems in accordance with
GAGAS.

Under FISMA, agency heads are responsible for providing information security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems. FISMA
directs Federal agencies to report annually to the OMB Director, Comptroller General, and selected
Congressional committees on the adequacy and effectiveness of agency information security policies,
procedures, and practices and compliance with FISMA. In addition, FISMA requires agencies to have an
annual independent evaluation performed of their information security programs and practices and to
report the evaluation results to OMB. FISMA states that the independent evaluation is to be performed
by the agency IG or an independent external auditor as determined by the IG.

In support of agency responsibilities, OMB regularly issues policies through annual reporting instructions
and other guidelines for agencies to follow in meeting FISMA annual reporting requirements.
Additionally, in response to the FISMA mandate and OMB policy, NIST developed standards and
guidelines as part of a comprehensive risk management framework to assist agencies in establishing an
information security management program. This risk management framework is designed to help
agencies categorize information and systems, define minimum-security baselines, test security controls,
authorize systems into production, and perform monitoring activities. This includes the NIST FIPS 199,
Standards for Security Categorization of Federal Information and Information Systems, issued in
February 2004, as the first of two mandatory security standards required by FISMA. NIST FIPS 199
establishes security categories for Federal agencies to use in categorizing information and information
systems based on the potential impact associated with the loss of confidentiality, integrity, or availability
on an agency mission or individual.

NIST FIPS 200 Minimum Security Requirements for Federal Information and Information Systems is the
second of the mandatory security standards developed in response to FISMA and provides direction to
agencies in determining the minimum “foundational” level of security controls to select for protecting the
confidentiality, integrity, and availability of information and systems. Specifically, the standard states
that selected set of security controls must include one of three appropriately tailored security control
baselines from NIST SP 800-53 Rev. 2, which are associated with the designated impact levels of the
organizational information systems as determined during the security categorization process. NIST SP
800-53 Rev. 2 features 17 control families organized into management, operational, and technical control
areas for protecting Federal information and information systems. In accordance to security requirements
in NIST FIPS 200, organizations must employ all security controls in the respective security control
baselines unless specific exceptions are allowed based on the tailoring guidance provided in NIST SP
800-53 Rev. 2. This includes: i) selecting an initial set of baseline security controls based on a NIST FIPS
199 worst-case, impact analysis; ii) tailoring the baseline security controls; and iii) supplementing the

                                                                                                      Page 4
security controls, as necessary, based on an organizational assessment of risk. As a companion to this
guide, NIST in July 2008 released SP 800-53A, Guide for Assessing the Security Controls in Federal
Information Systems, which covers both the security control assessment and continuous monitoring steps
in the Risk Management Framework and provides guidance on the security assessment process.

On December 17, 2003, the President signed HSPD-7, which established a national policy for Federal
departments and agencies to identify and prioritize United States CI/KR in order to protect them from
terrorist-related attacks. HSPD-7 instructed Federal agencies and departments to prepare plans for the
protection of physical and cyber-related CI/KR, both owned and operated. On June 17, 2004, the OMB
issued Memorandum M-04-15, with the purpose of further defining the requirements of HSPD-7, as well
as for providing instructions for the development of Critical Infrastructure Protection (CIP) plans. The
purpose of the CIP plan is to identify, prioritize, protect, and plan for contingencies related to the CI/KR
of each agency and department.

Treasury Information Security Management and Program

Treasury is comprised of 13 operating bureaus and offices, including:

•   Alcohol and Tobacco Tax and Trade Bureau (TTB) - Responsible for enforcing and administering
    laws covering the production, use, and distribution of alcohol and tobacco products. TTB also collects
    excise taxes for firearms and ammunition.
•   Bureau of Engraving and Printing (BEP) - Designs and manufactures U.S. (paper) currency, many
    stamps, securities, and other official certificates and awards.
•   Bureau of the Public Debt (BPD) - Borrows the money needed to operate the Federal Government.
    It administers the public debt by issuing and servicing U.S. Treasury marketable, savings, and special
    securities.
•   Community Development Financial Institution (CDFI) Fund - Created to expand the availability
    of credit, investment capital, and financial services in distressed urban and rural communities.
•   Departmental Offices (DO) - Primarily responsible for policy formulation. The DO is composed of
    divisions headed by Assistant Secretaries, some of whom report to Under Secretaries.
•   Financial Crimes Enforcement Network (FinCEN) - Supports law enforcement investigative
    efforts and fosters interagency and global cooperation against domestic and international financial
    crimes. It also provides U.S. policy makers with strategic analyses of domestic and worldwide trends
    and patterns.
•   Financial Management Service (FMS) - Receives and disburses all public monies, maintains
    government accounts, and prepares daily and monthly reports on the status of government finances.
•   IRS - Responsible for determining, assessing, and collecting internal revenue in the United States.
•   Office of the Comptroller of the Currency (OCC) - Charters, regulates, and supervises national
    banks to ensure a safe, sound, and competitive banking system that supports the citizens,
    communities, and economy of the United States.
•   OIG - Conducts and supervises audits and investigations of Treasury programs and operations. The
    OIG also keeps the Secretary and the Congress fully and currently informed about problems, abuses,
    and deficiencies in Treasury programs and operations.
•   Office of Thrift Supervision (OTS) - The primary regulator of all Federal and many state-chartered
    thrift institutions, which include savings banks and savings and loan associations.
•   United States Mint (Mint) - Designs and manufactures domestic, bullion, and foreign coins as well
    as commemorative medals and other numismatic items. The Mint also distributes U.S. coins to the
    Federal Reserve banks as well as maintains physical custody and protection of our nation’s silver and
    gold assets.


                                                                                                     Page 5
•   TIGTA - Conducts and supervises audits and investigations of IRS programs and operations. The
    TIGTA also keeps the Secretary and the Congress fully and currently informed about problems,
    abuses, and deficiencies in IRS programs and operations.

Treasury OCIO

The Treasury Chief Information Officer (CIO) is responsible for providing Department-wide leadership
and direction for all areas of information and technology management, as well as the oversight of a
number of IT programs. Among these programs is Cyber Security, which has responsibility for the
implementation and management of Treasury-wide IT security. Through its mission, the Treasury Cyber
Security program develops and implements IT security policies and provides policy compliance oversight
for both unclassified and classified systems managed by each of Treasury’s bureaus. The Treasury OCIO
Cyber Security program’s mission focuses on the following areas:

•   Cyber Security Policy and Program Performance
•   Cyber Security FISMA Performance and Technical Review
•   Vulnerability Analysis
•   Configuration and Planning
•   Cyber CIP
•   TCSIRC
•   Cyber Security Sub-Council (CSS) of the Treasury CIO Council.

The Treasury CIO has tasked the Associate CIO for Cyber Security (ACIOCS) with the responsibility of
managing and directing the OCIO’s Cyber Security program, as well as ensuring compliance with
statutes, regulations, policies, and guidance. The ACIOCS and the Cyber Security program have
established Treasury Directive Publication (TD P) 85-01 Treasury Information Technology Security
Program as the Treasury-wide IT security policy to provide for information security for all information
and information systems that support the mission of the Treasury, including those operated by another
Federal agency or contractor on behalf of Treasury. In addition, as OMB periodically releases
updates/clarifications of FISMA, the ACIOCS and the Cyber Security program have responsibility to
interpret and release updated policy for Treasury. The ACIOCS and the Cyber Security program are also
responsible for promoting and coordinating a Treasury-wide IT security program, as well as monitoring
and evaluating the status of Treasury’s IT security posture and compliance with statutes, regulations,
policies, and guidance. Lastly, the ACIOCS and the Cyber Security program have the responsibility of
managing Treasury’s IT CIP program for Treasury assets.

Bureau OCIO

Bureau OCIO organizations are led by a bureau CIO. The bureau CIOs first have the responsibility of
managing the IT security program for the bureau, as well as advising the bureau head on significant issues
related to the bureau IT security program. Bureau CIOs also have the responsibility for overseeing the
development of procedures that comply with both Treasury OCIO policy and guidance and Federal
statutes, regulations, policy, and guidance. Bureau Chief Information Security Officers are tasked by the
bureau CIOs to serve as the central point of contact for the bureau’s IT security program, as well as to
develop and oversee the bureau’s IT security program. This includes the development of policies,
procedures, and guidance required to implement and monitor the bureau IT security program.




                                                                                                   Page 6
Treasury – Bureau OCIO Collaboration

The Treasury OCIO has established the Treasury CIO CSS, which is chaired by the ACIOCS. The CSS
serves as a mechanism for obtaining bureau-level input and advises on new policies, Treasury-wide IT
security activities, and performance measures. The CSS also provides a means for IT security related
information sharing among bureaus. Included on the CSS are representatives from the OCIO, bureau CIO
organizations, as well as the OIG – Office of IT Audits and TIGTA – Office of Audits.




                                                                                             Page 7
OBJECTIVE, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine as of June 30, 2008, whether non-IRS Treasury bureaus had
implemented:

•   An information security program, consisting of plans, policies, procedures, and security controls
    consistent with FISMA4
•   The security controls catalog contained in the NIST SP 800-53 Rev. 2
•   Plans for protecting physical and cyber CI/KR consistent with paragraphs 1 through 11 of HSPD-7.

To accomplish our objectives, KPMG evaluated controls in accordance with applicable legislation,
Presidential directives, OMB policy, and NIST standards and guidelines. We reviewed the Treasury
information security program from both the Top-Down Department Level for Treasury-wide program
level controls and Bottom-Up Bureau Level implementation perspective, including NIST SP 800-53
minimum security control baselines established by NIST FIPS 200. We also reviewed Treasury’s
progress in preparing plans to protect cyber Critical Infrastructure. We considered each area above to
reach conclusions with regard to the adequacy of Treasury’s information security program and practices.

Top-Down Department Level

To gain an overall enterprise-level understanding, KPMG assessed management, policies, and guidance
for the overall Treasury-wide information security program per requirements defined in FISMA and
OMB/NIST standards, as well as guidelines developed in response to FISMA. This included program
controls applicable to information security governance, security and contingency planning, certification
and accreditation, incident response, configuration management, and security awareness and training.

Bottom-Up Bureau Level

As required by FISMA, KPMG also performed tests for a representative subset of 23 information systems
to determine whether bureaus were effective in implementing Treasury’s security program in meeting
minimum security standards to protect information and information systems (See Appendix II detailing
our sampling approach). The subset of systems encompassed systems managed and operated by 12 of 13
Treasury bureaus excluding the IRS.

A key component of assessing controls for the representative subset of systems was to assess
implementation of minimum security control requirements per guidance provided from the NIST SP 800-
53 Rev. 2. As shown in Table 1, NIST SP 800-53 Rev. 2 features 17 control families that are organized
into management, operational, and technical control areas for protecting Federal information and
information systems.




4
 This objective includes the completion of the OMB FY 2008 FISMA Reporting Template for IGs, which is
presented in Appendix I of this report.

                                                                                                        Page 8
                           Table 1: Security Control Classes and Families5
               Security Control Class                 Security Control Family
                                        Risk Assessment
                                        Planning
              Management                System and Services Acquisition
                                        Certification, Accreditation, and Security
                                        Assessments
                                        Personnel Security
                                        Physical and Environmental Protection
                                        Contingency Planning
                                        Configuration Management
              Operational               Maintenance
                                        System and Information Integrity
                                        Media Protection
                                        Incident Response
                                        Awareness and Training
                                        Identification and Authentication
                                        Access Control
              Technical
                                        Audit and Accountability
                                        System and Communications Protection

In accordance to security requirements in NIST FIPS 200, organizations must employ all security controls
in the respective security control baselines unless specific exceptions are allowed based on the tailoring
guidance provided in NIST SP 800-53. This includes: i) selecting an initial set of baseline security
controls based on a NIST FIPS 199 worst-case, impact analysis; ii) tailoring the baseline security
controls; and iii) supplementing the security controls, as necessary, based on an organizational assessment
of risk. As a companion to this guide, NIST in July 2008 released SP 800-53A, which provides
recommended guidance for agencies to follow in their security control assessment and continuous
monitoring process. KPMG’s control evaluation review for controls selected was based on the
assessment steps recommended in NIST SP 800-53A.

Our criteria for selecting controls within each system to review were based on the following:

•     Highly volatile controls that have the potential to affect the greatest number of information systems,
      such as common controls or those critical to a specific system which are likely to change over time.
•     Specific high-risk controls that are crucial to the protection of a system were considered for selection
      as part of the testing requirement. These are not necessarily the same as highly volatile controls and
      may or may not be POA&M items.
•     Testing of a system’s security-relevant changes that occur out of the certification and accreditation
      cycle but do not necessarily constitute a major change necessitating a new certification and
      accreditation.




5
    Source: NIST SP 800-53 Rev. 2

                                                                                                       Page 9
HSPD--7
KPMG assessed Treasury’s progress in preparing plans to protect IT-related CI/KR, owned or operated
including leased facilities. This included assessing development of CIP plans in accordance to OMB
Memorandum 04-15. These plans must address identification, prioritization, protection, and contingency
planning, including recovery and reconstitution of essential capabilities. In particular, we assessed
whether plans address protection priorities, ability to ensure continuity of operations during a cyber
attack, and where current capabilities are lacking, POA&Ms to achieve the necessary level of
performance.

Other Considerations

In performing our control evaluations, KPMG interviewed key Treasury OCIO personnel who had
significant information security responsibilities as well as personnel across the 12 non-IRS operating
bureaus. We also evaluated Treasury and bureaus’ policies, procedures, and guidelines. Lastly, we
evaluated selected security-related documents and files, including certification and accreditation
packages, configuration assessment results, IT service contracts, training records, and strategic and annual
performance plans.

We also relied on security-related audit, review, and evaluation reports issued by the OIG, Treasury, and
the Government Accountability Office (GAO) as of August 29, 2008. To assure ourselves that we could
rely on pertinent information contained in these reports, we performed procedures, such as obtaining an
understanding of the methodologies, assumptions, and conclusions described therein. We also performed
procedures to assure ourselves that computer-based data was valid and reliable when that data was
significant to our evaluation findings and conclusions. Such procedures included verifying selected
automated data to source documentation and corroborating automated data through interviews with
appropriate Treasury personnel.

We performed our audit at Treasury’s headquarters offices in Washington, DC and bureau locations in
Washington, DC, Hyattsville, MD, McLean, VA, and Parkersburg, WV during the period of May through
August 2008. During our audit, we met with Treasury management to discuss our preliminary
conclusions. Our audit was conducted in accordance with GAGAS (prescribed by the Comptroller
General of the United States) and included such tests as we considered necessary.

Applicable Criteria

KPMG’s approach to this FISMA performance audit is based on Federal information security criteria
developed by NIST and OMB. NIST SPs provide guidelines that are considered essential to the
development and implementation of agencies’ security programs.6

•   OMB Circular A-130, Management of Federal Information Resources
•   NIST FIPS 199 Standards for Security Categorization of Federal Information and Information
    Systems

6
 Note (per OMB instructions): While agencies are required to follow NIST standards and guidance in accordance
with OMB policy, there is flexibility within NIST’s guidance documents (specifically in the 800 series) in how
agencies apply the guidance. However, NIST FIPS are mandatory. Unless specified by additional implementing
policy by OMB, guidance documents published by NIST generally allow agencies latitude in their application.
Consequently, the application of NIST guidance by agencies can result in different security solutions that are equally
acceptable and compliant with the guidance.



                                                                                                             Page 10
•   NIST FIPS 200 Minimum Security Requirements for Federal Information and Information Systems
•   NIST SP:
    o 800-53 Rev. 2 Recommended Security Controls for Federal Information Systems
    o 800-53A Guide for Assessing the Security Controls in Federal Information Systems
    o 800-39 Managing Risk from Information Systems: An Organizational Perspective
    o 800-37 Guide for the Security Certification and Accreditation of Federal Information Systems
    o 800-70 Security Configuration Checklists Program for IT Products: Guidance for Checklists
        Users and Developers
    o 800-18 Rev. 1 Guide for Developing Security Plans for Information. Technology System
    o 800-16 Information Technology Security Training Requirements: A Role- and Performance-
        Based Model
    o 800-61 Computer Security Incident Handling Guide
    o 800-60 Guide for Mapping Types of Information and Information Systems to Security Categories
    o 800-34 Contingency Planning Guide for Information Technology Systems
    o 800-30 Risk Management Guide for Information Technology Systems
•   OMB Memoranda
    o 08-21 FY 2008 Reporting Instructions for the Federal Information Security Management Act and
        Agency Privacy Management
    o 04-04 E-Authentication Guidance for Federal Agencies
    o 04-15 Development of Homeland Security Presidential Directive (HSPD) - 7 Critical
        Infrastructure Protection Plans to Protect Federal Critical Infrastructures and Key Resources
    o 04-25 FY 2004 Reporting Instructions for the Federal Information Security Management Act
    o 07-11 Implementation of Commonly Accepted Security Configurations for Windows Operating
        Systems
    o 07-18 Ensuring New Acquisitions Include Common Security Configurations
•   HSPD-7 paragraphs 1 through 11




                                                                                             Page 11
RESULTS

During our FY 2008 FISMA audit, we noted that the 12 non-IRS Treasury bureaus have made progress in
improving information security controls and practices.7 Following our 2007 security evaluation, Treasury
strengthened its inventory reporting and POA&M processes by more effectively using the TAF system to
serve as the consolidated FISMA inventory system of record for the department and as the centralized
Department-wide POA&M system for tracking IT security weaknesses.8

Based on our FY 2008 FISMA audit, we noted four areas needing improvement. These areas are i) NIST
FIPS 200 minimum security control baselines were not sufficiently documented, tested, and/or
implemented; ii) computer security incidents were not consistently reported timely or correctly
categorized; iii) common security configuration baselines were not fully compliant; and iv) FDCCs were
not fully implemented. Treasury should take additional steps to ensure that its information security risk
management program and practices fully comply with applicable NIST standards and guidelines and
FISMA requirements.

In addition, we determined that Treasury had implemented all provisions of HSPD-7 and OMB
Memorandum 04-15. Specifically, Treasury had implemented a program to identify, prioritize, and
protect all IT/cyber-related CI/KR in accordance with HSPD-7 and OMB Memorandum 04-15. We
reviewed documentation and processes for CIP plans to determine if CI/KR are managed in accordance
with the applicable criteria. The Treasury OCIO Cyber Security program manages the CIP process. The
OCIO Cyber Security program has developed a CIP policy in TD P 85-01 that was derived from guidance
in HSPD-7 and OMB Memorandum 04-15. Additionally, the OCIO Cyber Security program developed
CIP processes and procedures in a CIP plan in accordance with OMB Memorandum 04-15. The CIP plan
was finalized in December 2005 and is updated annually. The CIP plan addresses the identification,
prioritization, and protection of IT-related CI/KR for all Treasury bureaus in three phases: prepare and
prevent, detect and respond, and recover and reconstitute.


FINDINGS

    1. NIST FIPS 200 Minimum Security Control Baselines Were Not Sufficiently Documented,
       Tested, and/or Implemented

        Treasury has made progress in addressing information security risk management requirements as
        required by FISMA and NIST, including the certification and accreditation of information systems
        and the implementation of minimum security controls outlined in NIST FIPS 200 and NIST SP
        800-53 Rev. 2. However, we noted that the minimum security controls required by NIST FIPS
        200 were not documented, tested, and/or implemented for eight (8) systems with our
        representative subset of non-IRS Treasury information systems. Specifically, for the eight (8)
        information systems (or 35% of the representative subset of Treasury information systems)
        reviewed, and one system that was identified as a deficiency in our FY 2007 report, we noted:

        •   Instances of inadequate testing were identified over the minimum security control baselines
            implemented for four (4) systems at BEP and three (3) systems at TTB. In addition, the
            system security plan for each of these systems had not been updated to document the


7
 The FISMA evaluation of the IRS is performed by TIGTA.
8
 TAF is an enterprise tool for aggregating data reported by Treasury bureaus to gauge how well the Department is
complying with key information security practices and controls.

                                                                                                         Page 12
    minimum security control baseline implemented, per NIST FIPS 200, NIST SP 800-53 Rev.
    2, and NIST SP 800-18 Rev. 1.

    Regarding the four (4) BEP systems, the system security plan was originally developed prior
    to the release of the final version of NIST SP 800-53. As a result, the system security plan
    only included the 17 NIST SP 800-53 control families, but not the specific controls within
    each family. In 2008, BEP management had not yet updated the system security plan to
    include each specific security control with the NIST SP 800-53 Rev. 2 security control
    baseline for a system with a FIPS 199 system impact level of Moderate. Additionally, during
    the security test and evaluation and continuous security control monitoring of the one (1) BEP
    system, only those specific controls outlined in the original system security plan were tested.

    Regarding the three (3) TTB systems, a third party was used to perform the security test and
    evaluation and the continuous security controls monitoring. TTB management believed that
    the methodology employed by this third party incorporated NIST SP 800-53 and NIST SP
    800-53A to assess all minimum security controls over a three-year period. However, it was
    found that only technical controls had been tested. TTB management also stated that the
    results of testing over each specific NIST SP 800-53 control in the security control baseline
    were not documented in the security test and evaluation report or in continuous security
    controls monitoring documentation prior to granting the authority to operate in June of the FY
    2008 FISMA reporting period.

•   The weaknesses identified through the security test and evaluation related to one (1) system at
    OTS selected as part of our representative subset identified that the 17 security control
    families required by NIST FIPS 200 for a system with a NIST FIPS 199 system impact level
    of Moderate had not been fully implemented. This system has been issued an Interim
    Authority to Operate (IATO) by OTS because of the security control weaknesses identified
    during the security test and evaluation. The previous OTS FISMA system inventory
    organized systems into business process, rather then functional IT units. The authorities to
    operate for each system in the prior OTS FISMA system inventory expired during the
    FY 2007 FISMA reporting period. OTS elected not to recertify and accredit each system due
    to plans to redefine the bureau’s FISMA system inventory, which occurred in the FY 2008
    FISMA report period. The security test and evaluation undertaken for the one (1) system
    selected identified a number of security weaknesses relative to the NIST SP 800-53 security
    control baseline for a Moderate system, which subsequently created an operating environment
    that was inadequate to support full system accreditation.

•   The contingency plan for one (1) system at the CDFI Fund was missing elements required by
    NIST SP 800-34. This condition was also noted in the 2007 FISMA evaluation. CDFI Fund
    management stated that sufficient resources have not been dedicated to update the plan in
    accordance with NIST SP 800-34. In FY 2008, CDFI Fund management had only dedicated
    limited resources to update the plan; however, the updates were not completed by the end of
    the FISMA reporting period. CDFI Fund management estimates that the plan will be updated
    by the end of the FY 2009 FISMA reporting period.

The Treasury OCIO Cyber Security program has implemented program-level controls for the
oversight of the certification and accreditation process across the Department. The program
controls are outlined as roles and responsibilities in TD P 85-01 – Treasury Information
Technology Security Manual. This document states that one of the responsibilities of the
ACIOCS is to monitor and evaluate the status of the Treasury IT security posture by performing


                                                                                          Page 13
compliance reviews of bureau IT security programs and system controls, including reviews of
certification and accreditation documentation. To execute this responsibility, the ACIOCS has
directed the Cyber Security program to perform two (2) types of monitoring and evaluation
activities. The first type of activity is a Technical Security Review, which includes vulnerability
assessments, penetration tests, and configuration reviews (including FDCC). The second type of
activity is a Security Program Review, which encompasses reviews of bureau level policies,
procedures, and the certification and accreditation documentation. The ACIOCS has developed a
plan to perform a Technical Security Review and Security Program Review at each bureau on an
annual basis. Through the Security Program Review, the Cyber Security program performs
procedures to determine if a bureau has loaded all of the required FISMA artifacts into TAF and
if the artifacts have been developed in accordance with OCIO policies, as well as OMB and
NIST laws, policies, and guidance. However, based on the documentation provided, these
procedures appear to only be designed to determine if a bureau has loaded all FISMA artifacts
into TAF and not determine compliance with Treasury policy, as well as OMB and NIST laws,
policy, and guidance.

The Treasury OCIO Cyber Security program is performing these activities as stated. However,
oversight and improvements by the ACIOCS and the Cyber Security program are needed to
ensure a consistent approach to the design, implementation, and/or testing of NIST SP 800-53
minimum security control baselines required by NIST FIPS 200. While it was noted that a
Security Program Review was conducted at all 12 non-IRS Treasury bureaus during the FY 2008
FISMA reporting period, we were unable to determine if these reviews would identify the
specific deviations identified.

In all cases noted above, there is a risk that the confidentiality, integrity, and availability of the
bureau’s sensitive or Personally Identifiable Information (PII) and information systems that
support the mission of the bureau are susceptible to compromise by not applying minimum
security standards in accordance to NIST FIPS 200 requirements.

For BEP, we recommend that management:

  1. The system security plan be updated to include all baseline security controls for a system
     with a FIPS 199 system impact level of Moderate.

  2. All security controls be tested within the NIST FIPS 200 minimum security control
     baseline, based on the system’s FIPS 199 system impact level during the systems
     recertification and accreditation in the FY 2009 FISMA reporting period, or during the
     next three-year certification and accreditation period through continuous monitoring.

For TTB, we recommend that management:

  3. Implement, document, and test management, operational, and technical security controls
     across each of the 17 security control families of NIST SP 800-53 Rev. 2.

  4. Re-consider the decision to issue a full authority to operate based on the assessment of the
     implementation of the management, operational, and technical security controls across all
     17 security controls families of NIST SP 800-53 Rev. 2.

  5. Review its certification and accreditation process to prevent other systems from being
     granted full authority to operate when NIST FISP 200 minimum security standards are not
     met.

                                                                                             Page 14
        For OTS, we recommend that management:

          6. Continue with bureau plans to resolve the security weaknesses identified during the
             certification and accreditation process by the end of the interim authorization period,
             December 31, 2008, and achieve a full authority to operate during the FY 2009 FISMA
             reporting period.

        For CDFI, we recommend that management:

          7. The one (1) system contingency plan be updated to include a business impact analysis and
             equipment replacement strategy in accordance with NIST SP 800-34.

        In addition, we recommend that the Treasury OCIO management:

          8. Provide additional oversight to monitor and enforce compliance with Treasury OCIO
             policies, as well as OMB and NIST laws, policies, and guidance with respect to the
             documentation, implementation, and testing of the minimum security control baselines
             required by NIST FIPS 200.

2. Computer Security Incidents were not Consistently Reported Timely or Correctly Categorized

   We reviewed thirty-eight (38) computer security incidents out of a population of 147, and noted the
   following discrepancies:

   •   Nine (9) computer security incidents across six (6) bureaus were not assigned the correct US-
       CERT incident categorization as required by Treasury Chief Information Officer (TCIO)
       Memorandum 06-12, Cyber Security Incident Response (Non-National Security Systems) and
       TCIO Memorandum 08-02, Cyber Security Incident Handling Guidelines and Clarifications for
       Treasury Directive Publication 85-01. Of the nine (9) computer security incidents, one (1)
       involved a breach of PII and eight (8) involved the loss of portable computing equipment.

   •   Three (3) computer security incidents across three (3) bureaus were not reported within the
       timeframes outlined by the US-CERT.

   TCIO Memorandum 06-02, Cyber Security Incident Response (Non-National Security Systems)
   requires that each bureau’s Computer Security Incident Response Capability (CSIRC) categorize
   significant incidents based on the US-CERT definitions for Category 1-4 computer security incidents.
   Table 2 outlines the US-CERT definitions of Category 1-4 computer security incidents.




                                                                                               Page 15
                      Table 2: US-CERT Definition of Category 1-4 Computer Security Incidents9
                            Category
          Category                                      Description                    Reporting Timetable
                             Name
       Category 1         Unauthorize      In this category, an individual          Within one (1) hour of
                          d Access         gains logical or physical access         discovery/detection.
                                           without permission to a Federal
                                           agency network, system,
                                           application, data, or other
                                           resource.
       Category 2         Denial of        An attack that successfully              Within two (2) hours of
                          Service          prevents or impairs the normal           discovery/detection if the
                          (DoS)            authorized functionality of              successful attack is still
                                           networks, systems, or applications       ongoing and the agency is
                                           by exhausting resources. This            unable to successfully
                                           activity includes being the victim       mitigate activity.
                                           or participating in the DoS.
       Category 3         Malicious        Successful installation of               Daily Note: Within one (1)
                          Code             malicious software (i.e., virus,         hour of discovery/detection
                                           worm, spyware, bots, Trojan              if widespread across
                                           horse, or other code-based               agency.
                                           malicious entity that infects or
                                           affects an operating system or
                                           application). Agencies are NOT
                                           required to report malicious logic
                                           that has been successfully
                                           quarantined by antivirus (AV)
                                           software.
       Category 4         Improper         A person violates acceptable             Weekly.
                          Usage            computing use policies.

      In addition, per TCIO Memorandum 06-02, the Department of Homeland Security has clarified that a
      US-CERT category 1 computer security incident reporting level should be used for physical loss of
      equipment that could result in unauthorized access to systems or information.

      Our analysis concluded that improvements are needed to provide for an enterprise-wide approach to
      the TCSIRC processes. The policy specifies that the TCSIRC serves as the central clearing house for
      external computer security incident reporting. In addition, Treasury OCIO policy also states that it is
      the responsibility of each bureau-level CSIRC to create computer security incident response training
      programs, or to include computer security incident response training with their specialized security
      training programs. However, the Treasury OCIO Cyber Security program and the TCSIRC are not
      providing the needed oversight to ensure the consistency and adequacy of the computer incident
      response training programs at each non-IRS bureau.

      Late or mis-categorized computer security incidents could limit Treasury’s ability to timely and
      accurately report computer security incidents according to policies and procedures.




9
    Source: Treasury CIO Memorandum 06-02 Cyber Security Incident Response (Non-National Security Systems)

                                                                                                        Page 16
   We recommend that the ACIOCS:

   9. Evaluate viable alternatives to improve bureau level awareness capabilities by providing and/or
      assisting bureaus with the development and implementation of incident response awareness
      programs.

3. Common Security Configuration Baselines Were Not Fully Compliant

   Treasury has established a Department-wide configuration management policy requiring all
   information systems to implement NIST SP 800-70 common security configuration baselines.
   However, we noted one (1) system at BPD and one (1) system at OTS (or 17% of the representative
   subset of Treasury information systems) had not utilized NIST SP 800-70 common security
   configurations. Common security configuration baselines were not developed for the one (1) system
   at BPD at time of fieldwork. In addition, competing resource requirements at OTS have prevented
   NIST SP 800-70 common security configuration baselines from being fully utilized to-date.

   By not having a NIST SP 800-70 compliant secure configuration baseline documented and
   implemented, the ability of these bureaus to apply a consistent security configuration across platforms
   and operating systems may be impaired. This could lead to the increased risk of exposure relative to
   the confidentiality, integrity, and availability of sensitive information and information systems
   controlled by these operating systems.

   We recommended that:

   10. Both BPD and OTS utilize NIST SP 800-70 common security configurations on the two (2)
       systems reported.

4. Federal Desktop Core Configurations Were Not Fully Implemented

   Treasury has made substantial progress in the implementation of FDCC secure configuration
   baselines since the issuance of OMB Memorandum 07-11. However, we noted that DO, FinCEN, the
   OIG, and OTS had not completed the implementation and validation of FDCC secure baseline
   configurations. First, at DO and the OIG, current network technology limitations have prevented
   them from implementing FDCC secure configuration baselines on all instances of the Microsoft
   Windows XP operating system. Second, at FinCEN, a lack of technical knowledge has prevented the
   bureau from fully implementing FDCC secure configuration baselines across all instances of the
   Microsoft Windows XP operating system. Third, OTS management indicated that unclear guidance
   from NIST and a constantly changing FDCC baseline has resulted in OTS being unable to fully test
   and implement all FDCC baseline configurations. However, OTS management also stated that
   several controls have been implemented to mitigate the potential risk posed by not implementing all
   FDCC secure configurations.

   By not applying the FDCC secure baseline configuration requirements for Windows XP, Treasury
   information systems are under increased risk of exposure relative to the confidentiality, integrity, and
   availability of sensitive information and information systems controlled by these operating systems.

   We recommend that:

   11. DO, FinCEN, the OIG, and OTS work to implement FDCC secure configuration baselines on all
       Microsoft Windows XP workstations.


                                                                                                  Page 17
CONCLUSIONS

As part of the FISMA audit of the non-IRS systems at Treasury, we assessed the effectiveness of
Treasury’s information security programs and practices and the implementation of the security control
catalog contained in NIST SP 800-53. Overall, we determined that an information security program is in
place and is generally consistent with FISMA; however, Treasury did not fully comply with the
requirements of NIST SP 800-53, as of June 30, 2008. Specifically, we determined from a sample of
systems reviewed that 35% of Treasury non-IRS systems did not fully comply with NIST SP 800-53
minimum security control catalog requirements. We are reporting exceptions with the extent NIST 800-
53 minimum security control catalogs were documented, implemented or tested. All of our findings are
included in the results section of this report, which warrants management attention and corrective action.

Additionally, we obtained evidence to assess Treasury’s compliance with HSPD-7 paragraphs 1-11 and
related OMB guidance. We determined that Treasury had implemented all provisions of HSPD-7
paragraphs 1-11 and related OMB guidance, and included the development of critical infrastructure plans
in identifying, prioritizing, protecting, and planning for contingencies related to IT-related CI/KR of
Treasury bureaus and those under direction and control of the OCIO.




                                                                                                  Page 18
MANAGEMENT RESPONSE TO DRAFT REPORT

The following is the OCIO’s response to the draft FISMA FY 2008 Performance Audit report dated,
September 15, 2008.




                                                                                             Page 19
Page 20
Page 21
Page 22
Page 23
APPENDIX I - OIG RESPONSE TO THE FY 2008 OMB FISMA REPORTING
QUESTIONS

OMB’s FY2008 FISMA Reporting Template for IGs includes the following questions, which are to be
addressed by the Treasury OIG and TIGTA:10

•    Question 1 – FISMA Systems Inventory
•    Question 2 – Certification and Accreditation, Security Controls Testing, and Contingency Plan
     Testing
•    Question 3 – Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System
     Inventory
•    Question 4 – Evaluation of Agency POA&M Process
•    Question 5 – IG Assessment of the Certification and Accreditation Process
•    Question 6 – IG Assessment of the Privacy Impact Assessment (PIA) Process11
•    Question 7 – IG Assessment of the Agency Privacy Program12
•    Question 8 – Configuration Management
•    Question 9 – Incident Reporting
•    Question 10 – Security Awareness Training
•    Question 11 – Collaborative Web Technologies and Peer-to-peer File Sharing
•    Question 12 – E-Authentication Risk Assessments

The responses to OMB’s questions have been divided into the two sections below. The first section
entitled “Detailed Description of the Responses to the FY 2008 Reporting Template for IGs” includes the
analysis and conclusions used to complete the reporting template for the non-IRS bureau of the Treasury.

The second section contains the FY 2008 Reporting Template for IGs. The Treasury’s responses to the
FY 2008 FISMA Reporting Instructions for the FISMA and Agency Privacy Management contained in
OMB Memorandum 08-21 represented the consolidation of the responses for the IRS developed by the
TIGTA and the responses for all 12 non-IRS bureaus developed by KPMG, under contract with the
Treasury OIG. KPMG does not take responsibility for the evaluation performed by TIGTA over the IRS.

Detailed Description of the Responses to the FY 2008 Reporting Template for IGs13

         FISMA System Inventory/Evaluation of Agency Oversight of Contractor Systems and Quality
         of Agency System Inventory (Questions 1&3)

         Treasury implemented the TAF during the FY 2007 FISMA reporting period as the centralized
         repository for all Treasury systems and FISMA-related artifacts. Since its implementation, TAF
         has helped improve the quality of the Department’s FISMA system inventory by serving as a
         centralized repository for common FISMA artifacts across the Department. The Treasury OCIO
         Cyber Security program has issued policy and guidance on TAF usage and provides training for

10
   The Treasury’s IGs include both the Treasury OIG and TIGTA.
11
   A separate performance audit report on the Treasury’s compliance with Section 522, Division H of the
Consolidated Appropriations Act, 2005, and the provisions of OMB Memorandum 07-16 Safeguarding Against and
Responding to the Breach of Personally Identifiable Information will be issued.
12
   A separate performance audit report on the Treasury’s compliance with Section 522, Division H of the
Consolidated Appropriations Act, 2005, and the provisions of OMB Memorandum 07-16 Safeguarding Against and
Responding to the Breach of Personally Identifiable Information will be issued.
13
   Individual non-IRS bureaus have been notified of the detail observations identified during fieldwork separately.

                                                                                                          Page I-1
all new users. No discrepancies were identified with respect to the completeness or quality of the
FISMA systems inventory.

For the system selected in our representative subset operated by a contractor, we noted that
Treasury had implemented policies and oversight procedures for contractor systems. We noted
that contracts contain terms and conditions that stipulated agency and contractor responsibilities
related to FISMA. In addition, Memoranda of Understanding are in place to define
responsibilities of both the agency and the contractor with respect to the information system
security.

Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
(Question 2)

Treasury has followed documented policies and procedures for certification and accreditation,
security controls testing, and contingency plan testing. However, one (1) Treasury system
selected within our representative subset of information systems is operating with an IATO. Per
NIST SP 800-37, an IATO does not represent a full system accreditation. Lastly, with the
exception of the systems within this Treasury bureau’s FISMA systems inventory, Treasury has
tested the security controls and contingency plans for all systems within our representative subset
of systems during the FY 2008 FISMA reporting period.

Evaluation of Agency POA&M Process (Question 4)

Treasury has implemented policies for the creation and maintenance of POA&Ms and has
implemented the TAF system to serve as the centralized, Department-wide system for tracking
IT security weaknesses. Treasury CIO Memorandum, 06-01 Improving the Department’s
Security Plan of Action and Milestone (POA&M) Process provides guidance for the inclusion of
IT security weaknesses in POA&Ms and for the prioritization of POA&Ms weaknesses. The
Treasury OCIO Cyber Security program also requires bureaus to follow OMB Memorandum 04-
25, FY 2004 Reporting Instructions for the Federal Information Security Management Act as
guidance for properly document and reporting POA&Ms weaknesses.

Treasury is using the TAF system to track all known weaknesses from all sources, including IG
reports, on a continuous basis. Each weakness has been documented in accordance with OMB
Memorandum 04-25 and has been prioritized. For weaknesses that were not uploaded into TAF,
we noted that a bureau system-level POA&M for each of those weaknesses existed. TAF also
allows for the continuous updating bureau-level POA&Ms with newly identified weaknesses and
the status of exist weaknesses. Individual bureaus are permitted to have internal POA&M
weakness tracking mechanisms, however quarterly updates must be made to TAF.

IG Assessment of the Certification and Accreditation (C&A) Process/Implementation of the
Security Control Catalog Contained in NIST SP 800-53 Rev.2 (Question 5)

Refer to Finding No. 1 in the Results section of this report on page 12.


Configuration Management (Question 8)

Refer to Finding No. 3 and No. 4 in the Results section of this report on page 17.



                                                                                          Page I-2
Incident Reporting (Question 9)

Refer to Finding No. 2 in the Results section of this report on page 15.

Security Awareness Training (Question 10)

Treasury has implemented policy in TD P 85-01 that requires each bureau CIO to ensure IT
security awareness training is provided annually to IT users (i.e., full time employees,
contractors, and any other individuals with system access) in accordance with applicable
guidance. In addition, new hires and new contractors are required to attend security awareness
training prior to being granted access to information systems. Lastly, all employees and
contractors are required to attend security awareness refresher training on an annual basis.

Treasury has improved its security awareness training program since the FY 2007 FISMA
reporting period. Out of a sample of 360 employees and contractors across the Department, only
five (5) did not attend IT security awareness training within the FY 2008 FISMA reporting
period. Of these five (5), two (2) were outside visitors who require periodic network access for
training and meetings. However, the network accounts belonging to these individuals were
disabled at the time of fieldwork. We noted that these deviations represented only a minimal rate
of control failure, based on the total sample size of 360 employees and contractors across all 12
non-IRS bureaus, and did not represent a control weakness.

Collaborative Web Technologies and Peer-to-Peer File Sharing (Question 11)

Treasury has established a Department-wide policy in TD P 85-01 for the inclusion of
collaborative web technologies and peer-to-peer file sharing in IT security awareness training
programs. TD P 85-01 requires bureaus to approve the use of all software, while use of pirated
software is prohibited. In addition, bureaus must approve all software use. The TD P 85-01 also
references the OMB Memorandum M-04-26, Personal Use Policies and “File-Sharing”
Technology for additional guidance pertaining to use of peer-to-peer technology. In addition, all
non-IRS bureaus have incorporated collaborative web technologies and peer-to-peer file sharing
within their IT security awareness training programs.

E-Authentication Risk Assessments (Question 12)

Treasury has established a Department-wide policy in TD P 85-01, which requires bureaus to
conduct an e-authentication risk analysis in accordance with OMB Memorandum 04-04 E-
Authentication Guidance for Federal Agencies. Bureaus have either validated that an E-
authentication risk assessment was not required by completing a questionnaire to determine the
types of information the system is processing or by identifying the type of transactions the
system is processing in the security plan. Three (3) of twenty-three (23) systems selected in our
representative subset of Treasury information systems required an E-Authentication Risk
Assessment. Each had an E-Authentication Risk Assessment in accordance with OMB
Memorandum 04-04.




                                                                                        Page I-3
OMB FY 2008 Reporting Template for IGs

                                                                 Question 1: FISMA Systems Inventory

1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by Component/Bureau and FIPS 199 system impact level
(high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of
an agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore,
self-reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient.
Agencies and service providers have a shared responsibility for FISMA compliance.

                                  Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and
percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a contingency plan
tested in accordance with policy.
                                                                Question 1                                                              Question 2
                                             a.                     b.                     c.                        a.                     b.                   c.
                                       Agency Systems       Contractor Systems      Total Number of          Number of systems     Number of systems     Number of systems
                                                                                        Systems                certified and        for which security       for which
                                                                                      (Agency and               accredited          controls have been   contingency plans
                                                                                   Contractor systems)                             tested and reviewed   have been tested in
                                                                                                                                     in the past year     accordance with
                                                                                                                                                               policy


                                                                                                Total
                FIPS 199 System                Number                 Number        Total                     Total     Percent     Total     Percent     Total     Percent
Bureau Name                          Number                 Number                             Number
                Impact Level                   Reviewed               Reviewed     Number                    Number     of Total   Number     of Total   Number     of Total
                                                                                               Reviewed
BEP             High                       2            0         0           0           2              0         0         0            0        0           0            0
                Moderate                  39            3         2           0          41              3         3      100%            3     100%           3         100%
                Low                        9            1         0           0           9              1         1      100%            1     100%           1         100%
                Not Categorized            0            0         0           0           0              0         0         0            0        0           0            0




                                                                                                                                                              Page I-9
                                                          Question 1                                                           Question 2
                                       a.                     b.                   c.                        a.                    b.                   c.
                                 Agency Systems       Contractor Systems    Total Number of          Number of systems    Number of systems     Number of systems
                                                                                Systems                certified and       for which security       for which
                                                                              (Agency and               accredited         controls have been   contingency plans
                                                                           Contractor systems)                            tested and reviewed   have been tested in
                                                                                                                            in the past year     accordance with
                                                                                                                                                      policy


                                                                                       Total
              FIPS 199 System            Number                 Number      Total                     Total    Percent     Total     Percent     Total     Percent
Bureau Name                     Number                Number                          Number
              Impact Level               Reviewed               Reviewed   Number                    Number    of Total   Number     of Total   Number     of Total
                                                                                      Reviewed
              Sub-total             50            4        2           0        52               4         4      100%           4      100%          4        100%
BPD           High                   2            0        0           0         2               0         0         0           0         0          0            0
              Moderate              12            2        0           0        12               2         2      100%           2      100%          2        100%
              Low                    6            1        0           0         6               1         1      100%           1      100%          1        100%
              Not Categorized        0            0        0           0         0               0         0         0           0         0          0            0
              Sub-total             20            3        0           0        20               3         3     100%            3      100%          3        100%
CDFI          High                   0            0        0           0         0               0         0         0           0         0          0           0
              Moderate               2            0        0           0         2               0         0         0           0         0          0           0
              Low                    1            0        0           0         1               0         0         0           0         0          0           0
              Not Categorized        0            0        0           0         0               0         0         0           0         0          0           0
              Sub-total              3            0        0           0         3               0         0         0           0         0          0            0
DO            High                  11            1        3           1        14               2         2      100%           2      100%          2        100%
              Moderate              22            2        6           1        28               3         3      100%           3      100%          3        100%
              Low                   13            3        2           0        15               3         3      100%           3      100%          3        100%
              Not Categorized        0            0        0           0         0               0         0         0           0         0          0            0
              Sub-total             46            6       11           2        57               8         8      100%           8     100%           8       100%
FinCEN        High                   5            0        0           0         5               0         0         0           0         0          0           0
              Moderate               2            0        0           0         2               0         0         0           0         0          0           0
              Low                    1            0        0           0         1               0         0         0           0         0          0           0
              Not Categorized        0            0        0           0         0               0         0         0           0         0          0           0
              Sub-total              8            0        0           0         8               0         0         0           0         0          0            0

FMS           High                   8            0         3          0        11               0         0         0           0        0           0           0
              Moderate              32            3         2          0        34               3         3      100%           3     100%           3        100%
              Low                    9            1         0          0         9               1         1      100%           1     100%           1        100%



                                                                                                                                                   Page I-10
                                                    Question 1                                                        Question 2
                                a.                      b.                   c.                     a.                    b.                   c.
                          Agency Systems        Contractor Systems    Total Number of       Number of systems    Number of systems     Number of systems
                                                                          Systems             certified and       for which security       for which
                                                                        (Agency and            accredited         controls have been   contingency plans
                                                                     Contractor systems)                         tested and reviewed   have been tested in
                                                                                                                   in the past year     accordance with
                                                                                                                                             policy


                                                                                 Total
       FIPS 199 System            Number                  Number      Total                  Total    Percent     Total     Percent     Total     Percent
                         Number                 Number                          Number
       Impact Level               Reviewed                Reviewed   Number                 Number    of Total   Number     of Total   Number     of Total
                                                                                Reviewed
       Not Categorized        0             0         0          0         0            0         0         0          0         0           0           0
       Sub-total             49             4         5          0        54            4         4      100%          4      100%           4        100%
IRS    High                   4             0         0          0         4            0         0          0         0          0          0            0
       Moderate             184            14         6          1       190           15        15      100%         15      100%          15        100%
       Low                   53             7         0          0        53            7         7      100%          7      100%           7        100%
       Not Categorized        0             0         0          0         0            0         0         0          0         0           0           0
       Sub-total            241            21         6          1       247           22        22      100%         22      100%          22        100%
Mint   High                   0             0         0          0         0            0         0          0         0          0          0            0
       Moderate              15             0         1          0        16            0         0          0         0          0          0            0
       Low                    3             0         0          0         3            0         0          0         0          0          0            0
       Not Categorized        0             0         0          0         0            0         0          0         0          0          0            0
       Sub-total             18             0         1          0        19            0         0          0         0          0          0            0
OCC    High                   0             0         0          0         0            0         0          0         0          0          0            0
       Moderate              15             0         0          0        15            0         0          0         0          0          0            0
       Low                    1             0         0          0         1            0         0          0         0          0          0            0
       Not Categorized        0             0         0          0         0            0         0          0         0          0          0            0
       Sub-total             16             0         0          0        16            0         0          0         0          0          0            0
OIG    High                   0             0         0          0         0            0         0          0         0          0          0            0
       Moderate               1             0         0          0         1            0         0          0         0          0          0            0
       Low                    0             0         0          0         0            0         0          0         0          0          0            0
       Not Categorized        0             0         0          0         0            0         0          0         0          0          0            0
       Sub-total              1             0         0          0         1            0         0          0         0          0          0            0
OTS    High                   0             0         0          0         0            0         0          0         0          0          0            0




                                                                                                                                          Page I-11
                                                                    Question 1                                                            Question 2
                                               a.                       b.                   c.                        a.                     b.                   c.
                                         Agency Systems         Contractor Systems    Total Number of          Number of systems     Number of systems     Number of systems
                                                                                          Systems                certified and        for which security       for which
                                                                                        (Agency and               accredited          controls have been   contingency plans
                                                                                     Contractor systems)                             tested and reviewed   have been tested in
                                                                                                                                       in the past year     accordance with
                                                                                                                                                                 policy


                                                                                                 Total
                    FIPS 199 System              Number                   Number      Total                     Total    Percent      Total     Percent     Total     Percent
 Bureau Name                          Number                    Number                          Number
                    Impact Level                 Reviewed                 Reviewed   Number                    Number    of Total    Number     of Total   Number     of Total
                                                                                                Reviewed
                    Moderate                 8            114         0          0          8              1         0        0%            0       0%           0          0%
                    Low                      0              0         0          0          0              0         0          0           0         0          0            0
                    Not Categorized          0              0         0          0          0              0         0          0           0         0          0            0
                    Sub-total                8              1         0          0          8              1         0        0%            0       0%           0          0%
 TIGTA              High                     0             0          0          0          0              0         0          0           0         0          0            0
                    Moderate                 2             0          0          0          2              0         0          0           0         0          0            0
                    Low                      0             0          0          0          0              0         0          0           0         0          0            0
                    Not Categorized          0             0          0          0          0              0         0          0           0         0          0            0
                    Sub-total                2              0         0          0          2              0         0          0           0         0          0            0
 TTB                High                     0              0         0          0          0              0         0          0           0         0          0            0
                    Moderate                17              3         0          0         17              3         3      100%            3     100%           3        100%
                    Low                      1             0          0          0          1              0         0         0            0        0           0           0
                    Not Categorized          0             0          0          0          0              0         0         0            0        0           0           0
                    Sub-total               18              3         0          0         18              3         3      100%            3     100%           3        100%
 Agency Totals      High                    32             1         6           1         38           2            2                     2                     2
                    Moderate               351            28        17           2        368          30           29                    29                    29
                    Low                     97            13         2           0         99          13           13                    13                    13
                    Not Categorized          0             0         0           0          0           0            0                     0                     0
                    Total                  480            42        25           3        505          45           44                    44                    44




14
     One OTS system selected in our representative subset of Treasury information system was identified as operating with an IATO.


                                                                                                                                                              Page I-12
            Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

3.a.   The agency performs oversight and evaluation to ensure information systems        Almost Always- for example, approximately 96-100% of the time
       used or operated by a contractor of the agency or other organization on behalf
       of the agency meet the requirements of FISMA, OMB policy and NIST
       guidelines, national security policy, and agency policy.

       Agencies are responsible for ensuring the security of information systems used
       by a contractor of their agency or other organization on behalf of their
       agency; therefore, self reporting by contractors does not meet the
       requirements of law. Self-reporting by another Federal agency, for example,
       a Federal service provider, may be sufficient. Agencies and service providers
       have a shared responsibility for FISMA compliance.

       Response Categories:
         - Rarely- for example, approximately 0-50% of the time
         - Sometimes- for example, approximately 51-70% of the time
         - Frequently- for example, approximately 71-80% of the time
         - Mostly- for example, approximately 81-95% of the time
         - Almost Always- for example, approximately 96-100% of the time
3.b.   The agency has developed a complete inventory of major information systems              The inventory is approximately 96-100% complete
       (including major national security systems) operated by or under the control
       of such agency, including an identification of the interfaces between each such
       system and all other systems or networks, including those not operated by or
       under the control of the agency.

       Response Categories:
        - The inventory is approximately 0-50% complete
        - The inventory is approximately 51-70% complete
        - The inventory is approximately 71-80% complete
        - The inventory is approximately 81-95% complete
        - The inventory is approximately 96-100% complete
3.c.   The IG generally agrees with the Chief Information Officer (CIO) on the                                       Yes
       number of agency-owned systems. Yes or No.



                                                                                                                                         Page I-13
                        Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.d.         The IG generally agrees with the CIO on the number of information systems                                  Yes
                   used or operated by a contractor of the agency or other organization on behalf
                   of the agency. Yes or No.
      3.e.         The agency inventory is maintained and updated at least annually. Yes or No.                               Yes

      3..f.        If the Agency IG does not evaluate the Agency’s inventory as 96-100% complete, please identify the known missing systems by
                   Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit 53 (if known), and
                   indicate if the system is an agency or contractor system.
                                                                                      Exhibit 53 Unique Project
              Component/Bureau                        System Name                                                         Agency or Contractor system?
                                                                                          Identifier (UPI)
N/A                                        N/A                                  N/A                               N/A

Number of known systems missing
                                           0
from inventory:




                                                                                                                                                  Page I-14
                                   Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process. Evaluate the degree
to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or necessary, include comments in the area
provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time

                      The POA&M is an agency-wide process, incorporating all known IT
                      security weaknesses associated with information systems used or
       4.a.                                                                                          Almost Always- for example, approximately 96-100% of the time
                      operated by the agency or by a contractor of the agency or other
                      organization on behalf of the agency.
                      When an IT security weakness is identified, program officials (including
       4.b.           CIOs, if they own or operate a system) develop, implement, and manage          Almost Always- for example, approximately 96-100% of the time
                      POA&Ms for their system(s).
                      Program officials and contractors report their progress on security
        4.c.                                                                                         Almost Always- for example, approximately 96-100% of the time
                      weakness remediation to the CIO on a regular basis (at least quarterly).

                      Agency CIO centrally tracks, maintains, and reviews POA&M activities
       4.d.                                                                                          Almost Always- for example, approximately 96-100% of the time
                      on at least a quarterly basis.

        4.e.          IG findings are incorporated into the POA&M process.                           Mostly- for example, approximately 81-95% of the time
                      POA&M process prioritizes IT security weaknesses to help ensure
        4.f.          significant IT security weaknesses are addressed in a timely manner and        Almost Always- for example, approximately 96-100% of the time
                      receive appropriate resources.




                                                                                                                                                       Page I-15
                                    Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process. Evaluate the degree
to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or necessary, include comments in the area
provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time

                      Treasury OIG Comment: Overall, our audit of the non-IRS bureaus of the Treasury displayed a consistent approach to the development, implementation and
                      management of a Treasury-wide POA&M process. The Treasury has developed policy and guidance and implemented a POA&M process that is followed by each
                      Treasury bureau. In addition, the Treasury OCIO has implemented TAF to serve as a Treasury-wide system of record for all FISMA related artifacts, including IT
                      security weaknesses. In instances were detailed IT security weaknesses and corrective actions were not incorporated into TAF, we noted that bureaus maintained
POA&M process         system-level POA&Ms to track the status of security weaknesses and related corrective action.
  comments:
                      TIGTA Comment: The IRS has an agency-wide process for managing POA&Ms, which generally includes incorporating findings from our audit reports.
                      However, TIGTA findings reported in 2008 were not included in the IRS POA&M process as they had been in prior years.




                                                                                                                                                                    Page I-16
                                          Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and standards. Provide
narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for
certification and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information
and Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk
assessments and security plans.


                     The IG rates the overall quality of the Agency's certification and accreditation process as:

                     Response Categories:
                      - Excellent
       5.a.                                                                                                                                                    Satisfactory
                      - Good
                      - Satisfactory
                      - Poor
                      - Failing

                     The IG's quality rating included or considered the following aspects of the C&A                   Security plan                                      X
                     process: (check all that apply)
                                                                                                                       System impact level                                X
                                                                                                                       System test and evaluation                         X
                                                                                                                       Security control testing                           X
       5.b.
                                                                                                                       Incident handling                                  X
                                                                                                                       Security awareness training                        X
                                                                                                                       Configurations/patching                            X
                                                                                                                       Other:
                     Treasury OIG Comment: The assessment of the quality of the certification and accreditation process involved the inspection of the documentation used to certify
                     and accredit a representative subset of 23 major application, minor application, and general support systems across six (6) of the 12 non-IRS Treasury bureaus. Test
  C&A process
                     work involved an inspection of system security plan, NIST FIPS 199 system impact level documentation, security test and evaluation reports, continuous monitoring
   comments:
                     documentation, incident handling documentation, security awareness documentation, and configuration management documentation. Test work identified
                     inconsistencies in the processes used to design, implement, and/or test the NIST SP 800-53 minimum security control baseline at three (3) bureaus. Specifically,




                                                                                                                                                                        Page I-17
seven (7) of the 23 systems selected across two (2) bureaus in the representative statistical sample of Treasury systems did not have all of the minimum baseline
security controls tested and evaluated prior to the decision to issue an authorization operate. In addition, the specific NIST SP 800-53 minimum baseline controls
required by NIST FIPS 200 were not documented within the system security plans of these systems. Lastly, one (1) system within our representative subset has yet
to have the NIST SP 800-53 minimum security control baseline fully implemented. This system is currently operating with an IATO.

Treasury OIG Comment: In the FY 2007 FISMA reporting period, it was identified that several elements required by NIST SP 800-34 were missing from a CDFI
Fund contingency plan. As of the close of the FY 2008 FISMA reporting period, these elements were still missing.

TIGTA Comment: The IRS has made significant progress in its certification and accreditation process. We evaluated the quality of the certification and
accreditation process for all 11 of the systems in our sample of 22 that were certified and accredited in 2008. We determined that all 11 systems were properly
certified and accredited in accordance with NIST guidelines.

For the remaining systems in our sample, we reviewed the adequacy of annual testing of security controls. The IRS made significant progress this year in this area.
An appropriate subset of management, operational, and technical controls was selected, documented, and approved for each of the 11 systems we reviewed.
However, the testing of operational and technical controls needs improvement to meet NIST and IRS guidelines. Thirty-seven percent of the operational controls
were not adequately tested, and 67 % of the technical controls were not adequately tested.

We also examined Information Technology Contingency Plan testing for all 22 systems in our sample, which has improved in the past year. This year the IRS
implemented a revised testing program and improved its testing guidance. Adequate tabletop testing was performed for all systems and functional testing was
performed for 10 systems in our sample that required this testing. However, improvements are needed to ensure that functional testing meets Department of the
Treasury and IRS guidelines.




                                                                                                                                                  Page I-18
                        Question 6-7: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

          6
                       Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA) process, as discussed in Section
                       D Question #5 (SAOP reporting template), including adherence to existing policy, guidance, and standards.

                       Response Categories:
                                                                                                                                                          Satisfactory
                        - Response Categories:
                        - Excellent
                        - Good
                        - Satisfactory
                        - Poor
                        - Failing

                       Treasury OIG Comment: The Senior Agency Official for Privacy (SAOP) and the Treasury Office of Privacy and Treasury Records have issued Treasury
                       Directive (TD) 25-07 Privacy Impact Assessment (PIA) on August 6, 2008 and drafted TD P 25-07 Privacy Impact Assessment Manual. This directive and related
                       procedures manual are being followed by all bureaus for the performance of a PIA. However, these documents were in draft during the FY 2008 FISMA reporting
                       period. Non-IRS Treasury bureaus have been using the draft directive and related procedures manual to perform PIAs. We noted that all systems within the
                       representative subset of 23 non-IRS Treasury systems had a PIA performed that met the guidance outlined in this draft directive and procedures manual.15
 Comments:

                       TIGTA Comment: During the past year, the IRS has continued to take steps to better protect the privacy of taxpayers. We determined that a PIA was prepared
                       according to IRS guidelines for each of the 22 systems in our representative sample.




15
 A separate performance audit report on the Treasury’s compliance with Section 522, Division H of the Consolidated Appropriations Act, 2005, and the provisions of
OMB Memorandum 07-16 Safeguarding Against and Responding to the Breach of Personally Identifiable Information will be issued.


                                                                                                                                                                    Page I-19
             Question 6-7: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

      7
            Provide a qualitative assessment of the agency’s progress to date in implementing the provisions of M-07-16
            Safeguarding Against and Responding to the Breach of Personally Identifiable Information.

            Response Categories:
                                                                                                                                                  Poor
             - Response Categories:
             - Excellent
             - Good
             - Satisfactory
             - Poor
             - Failing

            Treasury OIG Comment: The purpose of OMB Memorandum 07-16 is to instruct agencies to develop breach notification policies based on the guidance
            contained with the memorandum no later then September 19, 2007. The SAOP and the Treasury Office of Privacy and Treasury Records have developed TD 25-
            08 Personally Identifiable Information (PII) Protection, Breach Response, and Notification. While this TD was still under review by the SAOP at the conclusion
            of fieldwork, the policies outlined within were being followed by each of the 12 non-IRS bureaus.

Comments:   TIGTA Comment: The IRS has also taken steps to implement OMB Memorandum 07-16 requirements for safeguarding against and responding to the breach of
            PII. The IRS has developed plans to respond to PII breaches and to reduce the use of Social Security Numbers. In 2008, the IRS also conducted a program to
            refresh employee awareness of existing policies and procedures about encrypting, safeguarding, and protecting sensitive information.




                                                                                                                                                            Page I-20
                                                     Question 8: Configuration Management
     8.a.   Is there an agency-wide security configuration policy? Yes or No.                                                                      Yes
Comments:   Treasury OIG Comment: Treasury OCIO TCIO Memorandum 07-01 Security Configuration and Vulnerability Management Policy, which became effective on
            April 1, 2007, requires all Treasury bureaus to develop and/or implement configuration baselines that are compliant with NIST SP 800-70 on all operating systems
            and platforms. In addition, the Treasury OCIO released TCIO Memorandum 07-04 Implementation of Common Security Configuration for IT Systems Using
            Windows XP or Vista on April 17, 2007, which requires all Bureaus to implement common security configurations for Windows XP and Vista systems (i.e. FDCC)
            no later then February 1, 2008.

     8.b.   Approximate the extent to which applicable systems implement common security configurations, including use of
            common security configurations available from the National Institute of Standards and Technology’s website at                          Frequently- for
            http://checklists.nist.gov.                                                                                                            example, approximately
                                                                                                                                                   71-80% of the time
            Response categories:


             -   Rarely- for example, approximately 0-50% of the time
             -   Sometimes- for example, approximately 51-70% of the time
             -   Frequently- for example, approximately 71-80% of the time
             -   Mostly- for example, approximately 81-95% of the time
             -   Almost Always- for example, approximately 96-100% of the time


     8.c.   Indicate which aspects of Federal Desktop Core Configuration (FDCC) have been implemented as of this report:


            c.1. Agency has adopted and implemented FDCC standard configurations and has documented deviations. Yes or
                                                                                                                                                   Yes
            No.


            c.2 New Federal Acquisition Regulation 2007-004 language, which modified "Part 39—Acquisition of Information
                                                                                                                                                   Yes
            Technology", is included in all contracts related to common security settings. Yes or No.


            c.3 All Windows XP and VISTA computing systems have implemented the FDCC security settings. Yes or No.                                 No

Comments:   Treasury OIG Comment: Question 8.b – From our representative statistical sample of 23 non-IRS information systems, we determined that one (1) system at
            each of two (2) bureaus were not using NIST SP 800-70 common security configuration baselines during the FY 2008 FISMA reporting period. As a result, we
            determined that NIST SP 800-70 common security configurations are applied to 94% of the systems within our representative subset of non-IRS systems. When
            combined with the total percentage of instances of the Microsoft Windows XP operating systems running the FDCC secure baseline configurations, with



                                                                                                                                                              Page I-21
                                        Question 8: Configuration Management
deviations, the total percentage of implementation of NIST SP 800-70 common security configurations becomes 83%.

Treasury OIG Comment: Question 8.c.2 – Our response is based on the review of a selection of contracts at BEP, BPD, DO, and FMS.

Treasury OIG Comment: Question 8.c.3 – As noted in 8.a. above, Treasury required the adoption of FDCC standard configurations. To date, four (4) have not
implemented the FDCC secure baseline configuration across all workstations. In total, we determined that non-IRS Treasury is approximately 82% complete in
implementing FDCC secure configuration baselines on all instances of the Microsoft Windows XP platform.

TIGTA Comment: Question 8.b – The IRS provided test results that demonstrated an overall rate of 71% to 80% for implementing security configurations. In
general, we agreed with the IRS’ compliance assessment, with one exception. The IRS used external scanning software to assess compliance for one of its most
heavily used database products instead of using a scanner that can authenticate to the database and assess internal database configurations.

TIGTA Comment: Question 8.c.3 – The IRS has adopted the FDCC standard configurations in its workstation security policies and compliance assessment tools.
It has documented 11 deviations from the FDCC and the business reasons why the settings cannot be implemented, which have been reported along with other
noncompliant settings to the Department of the Treasury. The IRS continues to test FDCC standard configurations and therefore has only partially implemented
the FDCC. The IRS is currently testing settings to determine whether they can be implemented; it has confirmed compliance with 89 FDCC settings in its test
environment. However, the IRS has not yet validated that these settings are implemented on IRS workstations. The IRS compliance assessment tool, recently
configured to assess compliance with some FDCC settings, is in the initial stages of assessing IRS workstations.




                                                                                                                                              Page I-22
                                                                    Question 9: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law enforcement. If
appropriate or necessary, include comments in the area provided below.

                    The agency follows documented policies and procedures for identifying and reporting incidents internally. Yes or
       9.a.                                                                                                                                                  No
                    No.
                    The agency follows documented policies and procedures for external reporting to US-CERT. Yes or No.
       9.b.                                                                                                                                                  No
                    (http://www.us-cert.gov)

       9.c.         The agency follows documented policies and procedures for reporting to law enforcement. Yes or No.                                       Yes

Comments:           Treasury OIG Comment: The Treasury OCIO Cyber Security program and the TCSIRC have developed policies, guidance, and procedures for reporting
                    computer security incidents internally, as well as for the reporting computer security incidents to the US-CERT and to law enforcement. However, nine (9) out of
                    38 computer security incidents sampled (or 24%) from the total population of US-CERT Category 1 through Category 4 computer security incidents across the 12
                    non-IRS bureaus (147) in the FY 2008 FISMA reporting period were incorrectly categorized. In addition, three (3) category 1 computer security incidents out of
                    38 computer security incidents sampled (or 8%) from the total population of US-CERT Category 1 through Category 4 computer security incidents across the 12
                    non-IRS bureaus (147) in the FY 2008 FISMA reporting period were not reported based on the timeframes established by the US-CERT and Treasury OCIO
                    policy.

                    TIGTA Comment for IRS: IRS reports directly to the TCSIRC, not US-CERT.




                                                                                                                                                                       Page I-23
                                                         Question 10: Security Awareness Training

Has the agency ensured security awareness training of all employees, including contractors and those
employees with significant IT security responsibilities?

Response Categories:
                                                                                                          Almost Always- or approximately 96-100% of
 - Rarely- or approximately 0-50% of employees
                                                                                                          employees
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees

                                          Question 11: Collaborative Web Technologies and Peer-to-Peer File Sharing

Does the agency explain policies regarding the use of collaborative web technologies and peer-to-peer
file sharing in IT security awareness training, ethics training, or any other agency-wide training? Yes   Yes
or No.

                                                        Question 12: E-Authentication Risk Assessments

12.a. Has the agency identified all e-authentication applications and validated that the applications
have operationally achieved the required assurance level in accordance with the NIST Special              No
Publication 800-63, “Electronic Authentication Guidelines”? Yes or No.
12.b. If the response is “No”, then please identify the systems in which the agency has not implemented   While the Treasury OIG answered “Yes” to this question for
the e-authentication guidance and indicate if the agency has a planned date of remediation.               the representative subset of Treasury systems selected at the
                                                                                                          non-IRS bureaus, TIGTA reported that for IRS three of the five
                                                                                                          e-authentication applications were not validated to determine
                                                                                                          whether the applications operationally achieved the required
                                                                                                          assurance level. The IRS plans to revise its process for
                                                                                                          validating e-authentication assurance levels during the FY 2009
                                                                                                          FISMA reporting period.




                                                                                                                                                           Page I-24
APPENDIX II – APPROACH TO THE SELECTION OF THE SUBSET OF SYSTEMS

KPMG’s approach for the selection of a representative subset of Treasury systems was based on applying
an attribute random sampling formula per GAO/President’s Council on Integrity and Efficiency Financial
Audit Manual guidance for tests of controls. A standard sample size of 45 items is generally
recommended for test of controls based on a 90% confidence level and a 10% precision level or error rate
that the results will not be representative of the population. This confidence level is generally appropriate
for test of controls because the auditor obtains additional satisfaction regarding controls through other
tests such as substantive tests, inquiry, observation, and walkthroughs.16

The following table shows the approach taken for sampling 45 Treasury systems that included a breakout
between Treasury IRS17 and non-IRS systems, per OIG scope requirements:

                                                                      Low Risk (90%
                           Component      Time period                 confidence level
                                                                    and 10% precision)
                                          As of June 10                    20
                           IRS
                                          From June 10 to June 30           2
                                          As of June 10                    21
                           Non-IRS
                                          From June 10 to June 30           2
                           Total                                           45

A sample of 41 systems was initially selected using the June 10, 2008 universe and four (4) systems were
selected from the June 30, 2008 universe. The allocation of selections in the sample was proportional to
the number of systems in the population, therefore, out of the sample of 45, 22 selected were IRS systems
and 23 were Non-IRS systems. The first sample of 41 systems included 20 systems of the IRS sub-
population and 21 for the Non-IRS population. The final four (4) samples contained two (2) selections for
each group.




16
   GAO/President’s Council on Integrity and Efficiency Financial Audit Manual, Section 450 – Sampling Control
Tests, July 2001.
17
   Test work performed over Treasury IRS system was performed by TIGTA; not by KPMG.
                                                                                                      Page II-1
APPENDIX III - ACRONYM LISTING
Acronym   Definition                                         Acronym    Definition
          Associate Chief Information Officer for Cyber      IT         Information Technology
ACIOCS
          Security
BEP       Bureau of Engraving and Printing                   Mint       United States Mint
BPD       Bureau of the Public Debt                          NIST       National Institute of Standards and Technology
C&A       Certification and Accreditation                    OCC        Office of the Comptroller of Currency
CDFI      Community Development Financial Institution        OCIO       Office of the Chief Information Officer
CI/KR     Critical Infrastructure/Key Resources              OMB        Office of Management and Budget
CIO       Chief Information Officer                          OIG        Office of the Inspector General
CIP       Critical Infrastructure Protection                 OTS        Office of Thrift Supervision
CSIRC     Computer Security Incident Response Capability     PIA        Privacy Impact Assessment
CSS       Cyber Security Sub-Council                         PII        Personally Identifiable Information
DO        Departmental Offices                               POA&M      Plan of Action and Milestones
FDCC      Federal Desktop Core Configuration                 Revision   Rev
FinCEN    Financial Crimes Enforcement Network               SAOP       Senior Agency Official for Privacy
FIPS      Federal Information Processing Standards           SP         Special Publication
FISMA     Federal Information Security Management Act        TAF        Trusted Agent FISMA
FMS       Financial Management Service                       TCIO       Treasury Chief Information Officer
FY        Fiscal Year                                        TCSIRC     Treasury Computer Security Incident Response
                                                                        Capability
GAGAS     Generally Accepted Government Auditing Standards   TD         Treasury Directive
GAO       Government Accountability Office                   TD P       Treasury Directive Publication
HSPD      Homeland Security Presidential Directive           TIGTA      Treasury Inspector General for Tax Administration
IATO      Interim Authority to Operate                       TTB        Alcohol and Tobacco Tax and Trade Bureau
IG        Inspector General                                  US-CERT    United States Computer Emergency Readiness
                                                                        Team
IRS       Internal Revenue Service




                                                                                                         Page III-1
            ATTACHMENT 2

    Treasury Inspector General for Tax
 Administration–Federal Information Security
Management Act Report for Fiscal Year 2008,
            September 10, 2008
                                               DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
   FOR TAX ADMINISTRATION




                                            September 10, 2008


MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDIT
               OFFICE OF THE TREASURY INSPECTOR GENERAL

FROM:                        Michael R. Phillips
                             Deputy Inspector General for Audit

SUBJECT:                     Treasury Inspector General for Tax Administration – Federal
                             Information Security Management Act Report for Fiscal Year 2008
                             (Audit #200820024)

We are pleased to submit the Treasury Inspector General for Tax Administration’s Federal
Information Security Management Act (FISMA) 1 report for Fiscal Year 2008. The FISMA
requires the Office of Inspector General to perform an annual independent evaluation of
information security policies, procedures, and practices and compliance with FISMA
requirements. As such, this report presents the results of our independent evaluation of the
Internal Revenue Service’s (IRS) information technology security program.
We based our evaluation on the Office of Management and Budget (OMB) FISMA reporting
guidelines for 2008 and the answers to the questionnaire published with the OMB guidelines
(see Attachment I). During the 2008 evaluation period, 2 we also conducted nine audits to
evaluate the adequacy of information security in the IRS (see Attachment II). We considered the
results of those audits when making our assessment. Major contributors to this report are listed
in Attachment III.
To complete our review, we evaluated a representative sample of 22 IRS information systems to
assess the quality of the certification and accreditation process. For these systems, we also
assessed the annual testing of controls for continuous monitoring, testing of Information
Technology Contingency Plans, and quality of the Plan of Action and Milestones process. We
conducted separate tests to evaluate processes for inventory accuracy, configuration
management, incident reporting, awareness training, and information privacy.
Overall, the IRS has made steady progress in complying with FISMA requirements since
enactment of the FISMA in 2002, and it continues to place a high priority on efforts to improve

1
 Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
2
 The FISMA evaluation period for the Department of the Treasury is July 1, 2007, through June 30, 2008.
Hereafter, all references to 2008 refer to the FISMA evaluation period.
its security program. We observed significant improvements in the areas of security that we had
identified as needing improvement in our 2007 FISMA evaluation. 3 In addition, during 2008,
the IRS Modernization and Information Technology Services organization Cybersecurity office
took steps to achieve efficiencies in the certification and accreditation process. It realigned its
general support system structure by functional rather than physical boundaries, which reduced
the number of general support systems and improved mapping to applications. It also
streamlined the certification and accreditation process for low-impact systems to reduce costs
and improve scheduling capabilities. During 2008, the IRS certified and accredited the last of its
systems that had not previously been assessed through a National Institute of Standards and
Technology (NIST) 4 -compliant certification and accreditation process. The IRS also continued
to work closely in seeking guidance and concurrence on FISMA issues with the Treasury
Inspector General for Tax Administration and the Department of the Treasury Chief Information
Officer to improve compliance with the NIST and FISMA requirements.
Our evaluation of the IRS’ 2008 performance against specific OMB security measures and our
audit work performed during 2008 show that while the IRS improved its certification and
accreditation process, more needs to be done to adequately secure its systems and data. The
most significant area of concern is implementation of configuration management standards.
Attachment I provides our responses to the OMB FISMA questions for the Inspector General.
We are confident that the IRS systems inventory is substantially complete, the Plan of Action
and Milestones process is adequate to ensure the remediation of security weaknesses, and
policies and procedures are followed for reporting computer security incidents. Provided in this
document are security performance improvements as well as areas that require additional
attention.
Certification and Accreditation Process The IRS has made significant progress in its
certification and accreditation process. Therefore, this year we evaluate this process as good.
However, the IRS needs to continue to improve the process to ensure that the level of annual
security controls and contingency plan testing is sufficient.
The OMB guidelines for minimum security controls in Federal Government information systems
require that all systems be certified and accredited every 3 years or when major system changes
occur. The NIST provides guidelines for conducting the certifications and accreditations. In our
2007 FISMA evaluation, we reported that the IRS had implemented a satisfactory certification
and accreditation process. This year the IRS completed this implementation, and it has now
subjected all systems to the process. We evaluated the quality of the certification and
accreditation process for all 11 of the systems in our sample of 22 that were certified and
accredited in 2008. We determined that all 11 systems were properly certified and accredited in
accordance with NIST guidelines.
For the remaining systems in our sample, we reviewed the adequacy of annual testing of security
controls for continuous monitoring. The IRS made significant progress this year in this area. An

3
  Treasury Inspector General for Tax Administration – Federal Information Security Management Act Report for
Fiscal Year 2007 (Reference Number 2007-20-186, dated September 4, 2007).
4
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements for providing adequate information security for all Federal Government agency operations
and assets.
                                                                                                                  2
appropriate subset of management, operational, and technical controls was selected, documented,
and approved for each of the 11 systems we reviewed. However, the testing of operational and
technical controls needs improvement and does not meet NIST and IRS guidelines. Overall,
28 percent of the controls were not sufficiently tested for the 11 systems from our sample.
Thirty-seven percent of the operational controls were not adequately tested, and 67 percent of the
technical controls were not adequately tested. These tests were limited to examining
certification and accreditation documentation without securing evidence from the system. As a
result, some tests were insufficient to identify controls that might not be operating as intended to
protect the systems and data.
We also examined the IRS’ testing of Information Technology Contingency Plans, which has
improved in the past year. This year, the IRS implemented a revised testing program and
improved its testing guidance. Our review of the 22 systems in our sample determined that
adequate tabletop 5 testing was performed for all systems. In addition, the IRS performed
functional testing for the 10 systems in our sample for which this testing was required.
However, improvements are needed to ensure that testing meets Department of the Treasury and
IRS guidelines:
    •   Supporting documentation for 4 of the 10 functional tests did not adequately support
        testing results for verifying readability of backup tapes retrieved during the tests.
    •   The IRS has not developed criteria to assess the timeliness of retrieving backup tapes
        from offsite locations. In addition, the IRS did not compute the time for retrieving
        backup tapes in any of the 10 functional tests.
    •   The IRS performed only a limited test of timeliness for offsite retrieval of backup tapes,
        including those from offsite vendors, during other than normal working hours. The IRS
        conducted this test for only one system and did not document the results. IRS
        management informed us that this was a cost-based decision due to the limited funding
        for these tests.
    •   Testing plans and results did not include a description of the sampling methodology used
        for retrieving and validating the readability of backup files. IRS procedures recommend
        that a sample of files, rather than the entire population, be selected for testing and that the
        sample be selected at random.
Plan of Action and Milestones Process The IRS has an agency-wide process for managing
Plans of Action and Milestones, which generally includes incorporating findings from our audit
reports. However, our findings reported in 2008 were not included in the IRS Plan of Action and
Milestones process as they had been in prior years. Based on our discussions with IRS
management, we determined that responsibilities for this part of the Plan of Action and
Milestones process were inadequately transferred between employees.
Privacy Requirements During the past year, the IRS has continued to take steps to better
protect the privacy of taxpayers. We determined that a Privacy Impact Assessment 6 was

5
  Participants in tabletop exercises walk through the contingency plan procedures to ensure that the documentation
reflects the ability to adequately perform the tasks outlined without any recovery operations actually occurring.
6
  This is an analysis of how personal information is collected, stored, shared, and managed in a Federal Government
system.
                                                                                                                  3
prepared according to IRS guidelines for each of the 22 systems in our representative sample.
The IRS has also taken steps to implement OMB requirements for safeguarding against and
responding to the breach of personally identifiable information (PII). The IRS has developed
plans to respond to PII breaches and to reduce the use of Social Security Numbers. In 2008, the
IRS also conducted a program to refresh employee awareness of existing policies and procedures
about encrypting, safeguarding, and protecting sensitive information. As a result, we are
evaluating the IRS’ progress in implementing OMB requirements for safeguarding against and
responding to breaches of PII as good.
However, we continue to have concerns about the IRS’ overall ability to adequately protect PII.
In particular, weaknesses in access controls, audit trails, and system configuration settings
directly affect the IRS’ ability to protect PII. In 2008, our audits continued to identify
weaknesses in the IRS’ ability to adequately secure its systems and protect PII. Attachment II
presents a list of these reports.
Security Configurations The OMB requires agencies to have configuration guides in place to
ensure consistent implementation of software across the agency. The IRS has an agency-wide
security configuration policy but needs to do more to ensure that information systems apply
common security configurations established by the NIST.
The IRS provided test results that demonstrated an overall rate of 71 percent to 80 percent for
implementing security configurations. In general, we agreed with the IRS’ compliance
assessment, with one exception. The IRS used external scanning software to assess compliance
for one of its most heavily used database products instead of using a scanner that can
authenticate to the database and assess internal database configurations.
During our evaluation, we also identified software used by the IRS for which compliance with
NIST or IRS standard configurations was not reported. The software includes firewalls, systems
management computers, web servers, handheld device servers, and mainframes. The software
should be included in the IRS’ 2009 FISMA assessment.
In this year’s assessment, the OMB also requires an evaluation of agency progress in
implementing the Federal Desktop Core Configuration (FDCC) standard configurations. We are
currently conducting an audit in this area and will further evaluate the IRS’ progress in
implementing these configurations. Our evaluation below is based on the IRS’ progress as of
June 30, 2008.
The IRS has adopted the FDCC standard configurations in its workstation security policies and
compliance assessment tools. It has documented 11 deviations from the FDCC and the business
reasons why the settings cannot be implemented, which have been reported along with other
noncompliant settings to the Department of the Treasury. The IRS continues to test FDCC
standard configurations and therefore has only partially implemented the FDCC. Based on
guidance from the OMB that partial implementation is acceptable, and because the IRS followed
the Department of the Treasury process for reporting deviations, we determined that the agency
has adopted and implemented FDCC standard configurations and has documented deviations.
The IRS has also included new Federal Acquisition Regulation 7 language in three contracts that
we were able to review and has issued guidance on this requirement.

7
    48 C.F.R. ch. 1 (2006).
                                                                                                  4
However, we were unable to confirm that the IRS has implemented FDCC standard
configurations on all Windows workstations. The OMB permits implementation to include those
settings for which deviations have been documented. The IRS is currently testing settings to
determine whether they can be implemented; it has confirmed compliance with 89 FDCC
settings in its test environment. However, the IRS has not yet validated that these settings are
implemented on IRS workstations. The IRS compliance assessment tool, recently configured to
assess compliance with some FDCC settings, is in the initial stages of assessing IRS
workstations. Therefore, we cannot validate that FDCC settings are implemented on all IRS
workstations.
Electronic Authentication Risk Assessments Last year, we reported that the IRS completed
electronic authentication (e-authentication) risk assessments for its systems. While our review
this year continued to find that e-authentication risk assessments are completed, we do not have
confidence that applications have operationally achieved the required assurance level in
accordance with NIST Electronic Authentication Guidelines (Special Publication 800-63).
We agree with the IRS’ inventory of e-authentication applications and did not identify any
additional applications that should be included. However, the IRS has not consistently validated
the operation of e-authentication controls. The OMB requires Federal Government agencies to
conduct a final validation confirming that systems achieve the required e-authentication
assurance level. This validation should be performed as part of required security procedures,
such as certification and accreditation or annual testing. We determined that three of the five
e-authentication applications did not include e-authentication validation tests during certification
and accreditation. The IRS has acknowledged the need to improve its e-authentication process
and plans to revise its process for validating e-authentication assurance levels during the
2009 FISMA reporting period.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                   5
                                         Attachment I


Details of the Treasury Inspector General for Tax
  Administration Federal Information Security
            Management Act Analysis




                                                    6
7
8
9
10
                                                                           Attachment II

  Treasury Inspector General for Tax Administration
   Information Technology Security Reports Issued
          During the 2008 Evaluation Period

1. Effectiveness of Access Controls Over System Administrator User Accounts Can Be
   Improved (Reference Number 2007-20-161, dated September 19, 2007).
2. Lack of Proper IRS Oversight of the Department of the Treasury HSPD-12 Initiative
   Resulted in Misuse of Federal Government Resources (Reference Number 2008-20-030,
   dated December 14, 2007).
3. Internal Revenue Service Databases Continue to Be Susceptible to Penetration Attacks
   (Reference Number 2008-20-029, dated December 14, 2007).
4. Improvements Are Needed to the Information Security Program Governance Process
   (Reference Number 2008-20-076, dated March 11, 2008).
5. Actions Are Needed to Improve the Effectiveness of the Physical Security Program
   (Reference Number 2008-20-077, dated March 13, 2008).
6. Inadequate Security Controls Over Routers and Switches Jeopardize Sensitive Taxpayer
   Information (Reference Number 2008-20-071, dated March 26, 2008).
7. Private Collection Agencies Adequately Protected Taxpayer Data (Reference
   Number 2008-20-078, dated March 26, 2008).
8. Control Weaknesses at Internal Revenue Service Internet Connections Increase Security
   Risks (Reference Number 2008-20-143, dated July 17, 2008).
9. Unauthorized and Insecure Internal Web Servers Are Connected to the Internal Revenue
   Service Network (Reference Number 2008-20-159, dated August 26, 2008).




                                                                                          11
                                                                          Attachment III

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Michael Howard, Audit Manager
Alan Beber, Senior Auditor
Richard Borst, Senior Auditor
Charles Ekunwe, Senior Auditor
Myron Gulley, Senior Auditor
Jody Kitazono, Senior Auditor
Thomas Nacinovich, Senior Auditor
Midori Ohno, Senior Auditor
Joan Raniolo, Senior Auditor
Jefferson Lee, Program Analyst




                                                                                         12
